NO: 19-1245

IN THE
SUPREME COURT OF THE UNITED STATES

Samuel Kwushue
PETITIONER
v.
United States of America
RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
United State Court of Appeals for the Eleventh Circuit.
PETITION FOR REHEARING
Samuel Kwushue 67311-019
6001 Kahiti Trc.
Union City, GA 30291

<?■

TABLE OF CONTENTS
Page

TABLE OF CONTENTS

1

TABLE OF CITATIONS

u

PETITION FOR REHEARING

1

CONCLUSION

?

CERTIFICATE

1

I

TABLE OF CITATIONS
Page
CASES
Fasulo v U.S., 272 U.S. 620, 629, 47 S.Ct.200,202, 71 L.ED 443(1926

4
1, 2, 3, 4

Kelly v United States No 18-1059
Parr .v United States 363 U. S 370(1960)

4

United States v Brown# 93-4063 (11th Cir.1996)

4

STATUTES AND RULES
18 USCS 1343

1, 2,

28 USCS 2255

1

7 CFR 274.8(10) (i)

4
1,5

SUP. CT. R 44.2

MISCELLANEOUS
Petition for Writ of Certiorari,
Samuel Kwushue v United States, No. 19-1245

n

1

PETITION FOR REHEARING
Pursuant to Sup. Ct. R. 44.2, petitioner (Samuel Kwushue) respectfully
petitions this Court for an order (1) granting rehearing, (2) vacating the Court’s
May 26, 2020 order denying certiorari, (3) granting the petition for writ of certiorari
in the light of clarification made in Kelly u United States No: 18-1059, and (4)
granting an order for a Certificate of Appealability.
Petitioner submits that while his petition for writ of certiorari No. 19-1245
was pending in this court, the United States Supreme court, on May 7, 2020,
unanimously decided Kelly v United States No: 18-1059. Kelly clarifies that “The
wire fraud statute thus prohibits only deceptive “‘schemes to deprive [the victim of]
money or property.’”
As grounds for this petition for rehearing, petitioner states the following:
Petitioner challenged his conviction and sentence in a 2255 motion for the
offense of wire fraud under 18 USCS 1343 on the following constitutional grounds:
Jurisdictional Error, Factual Innocence, Inaccurate Presentence Report, Due
Process Error, Ineffective Assistance of Trial and Appellate Counsels. Petitioner
submitted that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right, and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.

1

payment process as charged. The indictment alleged that "Contrary to SNAP rules
and regulations, KWUSHUE provided cash to food stamp recipients in exchange for
EBT card payments..., caused the following wire communications to be transmitted
in interstate commerce: ... All in violation of Title 18, United States Code, Section
1343.” The clarification made by this Court in Kelly v United States No: 18-1059,
indicates that a conviction for wire fraud would stand only if there exists a
"deceptive scheme” involving the use of wire, aimed at money or property of the
victim.
In the light of Kelly supra, the District Court erred when it concluded that
petitioner is not entitled to a COA without ascertaining from the record if the
predicate offense charged in the indictment states that petitioner used " deceptive
scheme...” as clarified in Kelly v United States. No: 18-1059. The indictment in
petitioner’s case did not allege a "deceptive scheme” but charged "Contrary to SNAP
rule and regulation...” - a regulatory wrongdoing for which petitioner apologized
during his allocution in the district court. Petitioner asserted "YOUR HONOR, I
AM PLEADING THAT YOU HAVE MERCY AND THAT YOU FORGIVE AND
PARDON MY VIOLATION OF THE FOOD STAM REGULATION” Doc.50 pg. 94
Pp 23-25.
Second, the district court erred because it ignored government assertions and
government witness testimony on record which point to the fact that petitioner
could not have violated the wire fraud statute as clarified in Kelly v United States,
No: 18-1059.
2

(1) It is undisputed on record that petitioner was granted a license on behalf of the
KD Metro Store after satisfying the State of Georgia’s legal requirements to
participate in the SNAP program. The government asserted "AFTER THIS
DOCUMENT WAS SUBMITTED TO THE SNAP PROGRAM. THE STORE, KD
METRO, WAS APPROVED TO PARTICIPATE IN THE SNAP PROGRAM AND IT
BEGAN PROCESSING EBT CARD TRANSACTIONS ON BEHALF OF FOOD
STAMP RECIPIECTS.” Doc.49 pg.19. No "deceptive scheme” was alleged in the
process of obtaining SNAP license.
(2) It is also undisputed that the SNAP fund was downloaded into the SNAP
recipient’s personal SNAP account. The government asserted; "RECIPIENTS OF
FOOD STAMP BENEFITS WOULD USE THE EBT CARDS TO PURCHASE
ELIGIBLE FOOD ITEMS AT APPROVED RETAIL STORES AND THE AMOUNT
OF THE PURCHASE WOULD THEN BE DEBITED FROM THE FOOD STAMP
RECIPIENT’S SNAP ACCOUNT” .Doc. 49-15 Pp 13-16, "IF THE RECIPIENT’S
SNAP ACCOUNT HAS SUFFICIENT FUNDS AVAILABLE, IF THE SALE IS
AUTHORIZED, THE FUNDS FROM THE RECIPIENT’S ACCOUNT ARE
ELECTRONICALLY TRANSFERRED TO THE RETAIL STORE’S BANK
ACCOUNT...” Doc. 49-16 Pp 18-22. The fund was not in the account of the agency.
It was in the SNAP recipient personal SNAP account. As shown here, the SNAP
recipient control’s what happens to the money if it is available in the account.
(3) Record evidence shows that in dealing with the SNAP recipient, the petitioner
could not have obtained or deprived SNAP recipients of money by " deceptive
3

scheme” as clarified in Kelly v United States, No: 18-1059. Government witness
testimony on record asserted "WHEN I WOULD GO IN I WOULD...GRAB A SODA
OR SOMETHING TO DRINK...I PUT THEM ON THE COUNTER TOP,...THEN I
PROCEED TO TELL HIM HOW MUCH CASH BACK I WANT’. Doc.50 pg.12. PSR
Pp. 15 a, b, and c. The testimony show that the SNAP recipient made a request to
the petitioner to which petitioner agreed. The record did not show that Petitioner
used "deceptive scheme” or means to deprive the SNAP recipient of "money or
property” as clarified in Kelly v United States No: 18-1059.
(4) The use of the wire in the SNAP/EBT program is a lawfully compelled
requirement, governed by 7 CFR, 274.8(10) (i) which provides in relevant
part that "State agencies or their designated agents must draw funds from
State SNAP accounts for SNAP benefits transacted by that State's SNAP
recipients, regardless of where benefits were transacted”
This court held in Parr v United States, 363 U.S 370 (1960) that "It cannot be said
that mailings made or caused to be made under the imperative command of duty
imposed by Federal law are criminal under the federal mail fraud statute.” The
reasoning of the court in Parr supra should apply in petitioner’s case because the
court apply the same interpretation to the mail and wire fraud statute
In United States v. Brown, No. 93-4063. (11th Cir. 1996), the Eleventh
Circuit held that "Instead, we must closely analyze the statutory language and the
facts presented in a particular case; “[t]here, are no constructive offenses; and,
before one can be punished, it must be shown that his case is plainly within the
4

statute.” quoting Fasulo v. U.S., 272 U.S. 620, 629, 47 S.Ct. 200, 202, 71 L.Ed. 443
(1926).The Eleventh Circuit invalidated Brown’s conviction because there was no
record evidence of a “scheme to defraud” "within the meaning of the federal criminal
statutes...”
Whether petitioner’s conduct offended the wire fraud statute is a
determination petitioner seeks through his petition for a COA. In the light of Kelly v
United States, No: 18-1059, the granting of a writ of certiorari in a case similar to
petitioner’s case, which raised a pertinent issue raised in petitioner’s request for
COA, with regard to the question of whether petitioner’s conduct violated the wire
fraud statute should constitute "intervening circumstances of a substantial or
controlling effect or other substantial grounds not previously presented” sufficient
to warrant rehearing of the order denying certiorari in petitioner’s case. Sup. Ct. R
44.2.

CONCLUSION
For the foregoing reasons, petitioner prays that this Court (1) grant
rehearing of the order denying the petition for writ of certiorari in this case, (2)
vacate the Court’s May 26, 2020 order denying certiorari, (3) grant the petition for a
writ of certiorari, and (4) issue an order for a COA to enable petitioner obtain
appellate review of the merits of his constitutional claims.
5

5

Respectfully Submitted,

06/10/2020

^--------

SKnmei Kwushue
6001 Kahiti Tree
Union City Ga. 30291

v

\
6

NO 19-1245

IN THE SUPREME COURT OF THE UNITED STATES

SAMUEL KWUSHUE
Petitioner,
V
UNITED STATES OF AMERICA
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit

CERTIFICATE
I Petitioner (Samuel Kwushue), hereby certify that this petition for rehearing is
presented in good faith and not for delay and is restricted to the grounds specified
in Rule 44.2,

SAMUEL KWUSHUE
\

7

